                                                       NATIONAL SCIENCE FOUNOATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

 Case Number: AI0030020                                                                       Page 1 of 1



                 We reviewed a proposal 1 in which we identified a small amount of apparently copied text
         from three sources. We contacted the sole PI2 on the proposal and received a response indicating
                                                                   \

         that the material from two of the sources was provided by the collaborators she named in the
         proposaL However, she had not named those collaborators as contributing authors on the proposal as
         directed by NSF. 3 For the remaining text, she expressed belief that she cited the mater~al properly.
         However, she had not included quotation marks to distinguish the copied text from her original
         work. The subject was advised to be more careful in providing appropriate attribution for the
         contributions or work of others.

                    This case is closed with no further action.




         3   NSF Grant Proposal Guide Section I.0.3.




NSF OIG Form 2 (11102)
